NOS. 19-431 & 454
IN THE

Supreme Court of the United States
THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
V.

THE COMMONWEALTH OF PENNSYLVANIA AND
THE STATE OF NEW JERSEY, ET AL.,
DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
V.

Petitioner,

Respondents.
Petitioners,

COMMONWEALTH OF PENNSYLVANIA, ET AL.,

Respondents.

PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on second day of March 2020, I have served three (3) true copies of
the Brief of Amici Curiae Residents and Families of Residents at
Homes of the Little Sisters of the Poor in Support of Petitioners by
priority mail, postage prepaid, addressed as follows:
Attorneys for Petitioner
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
mrienzi@becketlaw.org

2
Federal Respondents:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Pennsylvania:
Josh Shapiro
Attorney General
Michael J. Fischer
Chief Deputy Attorney General
Aimee D. Thomson
Deputy Attorney General
Office of Attorney General
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires:
May 30, 2025

